         OFFICE OF INSPECTOR GENERAL 




                                 Catalyst for Improving the Environment


Audit Report




       Information Security Series:
       Security Practices

       Integrated Compliance
       Information System

       Report No. 2006-P-00020   


       March 29, 2006     

Report Contributors:      Rudolph M. Brevard
                          Charles Dade
                          Neven Morcos
                          Jefferson Gilkeson
                          Scott Sammons




Abbreviations

ASSERT       Automated Security Self-Evaluation and Remediation Tracking
C&A          Certification and Accreditation
EPA          U.S. Environmental Protection Agency
FISMA        Federal Information Security Management Act
ICIS         Integrated Compliance Information System
NCC          National Computer Center
OECA         Office of Enforcement and Compliance Assurance
OIG          Office of Inspector General
OMB          Office of Management and Budget
POA&M        Plan of Action and Milestones
RTP          Research Triangle Park
                       U.S. Environmental Protection Agency                                             2006-P-00020

                       Office of Inspector General                                                     March 29, 2006





                       At a Glance
                                                                        Catalyst for Improving the Environment

Why We Did This Review           Information Security Series: Security Practices
As part of our annual audit of
                                 Integrated Compliance Information System
the Environmental Protection
Agency’s compliance with         What We Found
the Federal Information
Security Management Act          The Office of Enforcement and Compliance Assurance (OECA) had implemented
(FISMA), we reviewed the         practices to ensure that the (1) Integrated Compliance Information System (ICIS)
security practices for a         production servers were monitored for known vulnerabilities and (2) personnel with
sample of key Agency             significant security responsibility completed the Agency’s recommended specialized
information systems,             security training. However, we found that OECA could improve its practices to
including the Office of          ensure that key security documents are maintained. Additionally, ICIS, a major
Enforcement and Compliance       application, was operating without a contingency plan or testing of the plan. OECA
Assurance’s (OECA’s)             officials could have discovered the noted deficiencies had they implemented
Integrated Compliance            processes to ensure these Federal and Agency information security requirements
Information System (ICIS).       were followed. As a result, ICIS had security control weaknesses that could affect
                                 OECA’s operations, assets, and individuals.
Background
                                 What We Recommend
FISMA requires agencies to
develop policies and             We recommend that the ICIS System Owner:
procedures commensurate
with the risk and magnitude      ¾	 Conduct a review of processes used to maintain ICIS’ key information security
of harm resulting from the          documents and implement identified process improvements,
malicious or unintentional
damage to the Agency’s           ¾	 Conduct a test of the ICIS contingency plan, and
information assets. ICIS
provides critical data and       ¾	 Develop Plans of Action and Milestones (POA&Ms) in the Agency’s security
processing in support of the        weakness tracking system (ASSERT database) for all noted deficiencies.
Agency’s environmental law
enforcement and compliance       We recommend that the OECA Information Security Officer:
program.
                                 ¾	 Conduct a review of OECA’s current information security oversight processes
                                    and implement identified process improvements.
For further information,
contact our Office of            OECA agreed that ICIS needed a contingency plan and the office developed a plan.
Congressional and Public         OECA did not agree that ICIS’ security plan was not up-to-date, the office should
Liaison at (202) 566-2391.
                                 create a plan to review its information security practices, and POA&Ms are needed
To view the full report,         for the identified weaknesses. Our audit disclosed that key security documents were
click on the following link:     not updated to reflect the results of critical security activities and although OECA
www.epa.gov/oig/reports/2006     developed a contingency plan, the office has not tested it. As such, OECA should re­
/20060329-2006-P-00020.pdf       evaluate its security oversight program to identify weaknesses and create POA&Ms
                                 to track remediation of uncompleted tasks. OECA’s response is at Appendix A.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460



                                                                                       OFFICE OF
                                                                                  INSPECTOR GENERAL



                                         March 29, 2006

MEMORANDUM

SUBJECT: 	            Information Security Series: Security Practices
                      Integrated Compliance Information System
                      Report No. 2006-P-00020

FROM: 	               Rudolph M. Brevard /s/
                      Director, Information Technology Audits

TO:        	          Granta Nakayama
                      Assistant Administrator for Enforcement and Compliance Assurance


This is our final audit report on the information security controls audit of the Office of
Enforcement and Compliance Assurance’s Integrated Compliance Information System. This
audit report contains findings that describe problems the Office of Inspector General (OIG) has
identified and corrective actions the OIG recommends. This audit report represents the opinion
of the OIG, and the findings in this audit report do not necessarily represent the final
Environmental Protection Agency (EPA) position. EPA managers, in accordance with
established EPA audit resolution procedures, will make final determinations on matters in this
audit report.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days of the date of this report. You should include a corrective action
plan for agreed upon actions, including milestone dates. We have no objection to further release
of this report to the public. For your convenience, this report will be available at
http://www.epa.gov/oig.

If you or your staff has any questions regarding this report, please contact me at (202) 566-0893,
or Charles Dade, Assignment Manager, at (202) 566-2575.
                                       Table of Contents 

At a Glance

Purpose of Audit…………………………………………………………………………………...                                                                                       1

Background…………………………………………………………………………………………                                                                                             1

Scope and Methodology .....................................................................................................              2

ICIS’ Compliance with Federal and Agency Security Requirements .............................                                             3

     Certification and Accreditation ………………….. .............................................................                             3
     Contingency Planning ………………………………………………………………………….                                                                                  4

Recommendations...............................................................................................................           4

Agency Comments and OIG Evaluation ............................................................................                          5



Appendices
A     Agency Response to Draft Report .............................................................................                      6    


B     Distribution ...................................................................................................................   9

Purpose of Audit
          Our objective was to determine whether the Office of Enforcement and
          Compliance Assurance’s (OECA’s) Integrated Compliance Information System
          (ICIS) complied with Federal and Agency information security requirements.
          ICIS provides critical data and processing in support of the Agency’s
          environmental law enforcement and compliance program.

Background
          We conducted this audit pursuant to Title III of the E-Government Act of 2002,
          commonly referred to as the Federal Information Security Management Act
          (FISMA). FISMA requires the Agency to develop policies and procedures
          commensurate with the risk and magnitude of harm resulting from the malicious
          or unintentional damage to the Agency’s information assets. EPA’s Chief
          Information Officer is responsible for establishing and overseeing an Agency-
          wide program to ensure that the security of its network infrastructure is consistent
          with these requirements. Program offices are responsible for managing the
          implementation of these security requirements within their respective
          organizations.

          Program offices should create a Plan of Action and Milestones (POA&M) when it
          identifies a security control weakness. The POA&M, which documents the
          planned remediation process, is recorded in the Agency’s Automated Security
          Self-Evaluation and Remediation Tracking (ASSERT) tool. ASSERT is used to
          centrally track remediation of weaknesses associated with information systems
          and serves as the Agency’s official record for POA&M activity.

          FISMA requires the Inspector General, along with the EPA Administrator, to
          report annually to the Office of Management and Budget (OMB) on the status of
          EPA’s information security program. The OIG provided the results of its review
          to OMB in Report No. 2006-S-00001, Federal Information Security Management
          Act, Fiscal Year 2005 Status of EPA’s Computer Security Program.

          During our annual FISMA review, we selected one major application each from
          five EPA program offices and reviewed the office’s security practices surrounding
          these applications. Our overall review noted instances where EPA could improve
          its security practices and the OIG reported the results to EPA’s Chief Information
          Officer in Report No. 2006-P-00002, EPA Could Improve Its Information Security
          by Strengthening Verification and Validation Processes.

          This audit report is one in a series of reports being issued to the five program
          offices that had an application reviewed. This report addresses findings and
          recommendations related to security practice weaknesses identified in OECA. In
          particular, this report summarizes our results regarding how ICIS complies with
          Federal and EPA information security policies and procedures. This report also

                                            1

         includes our evaluation of how OECA implemented, tested, and evaluated ICIS’
         information security controls to ensure continued compliance with reviewed
         Federal and Agency requirements. The Scope and Methodology section contains
         the specific information security controls audited during this review.

Scope and Methodology
         We conducted our field work from March 2005 to July 2005 at EPA Headquarters
         in Washington, DC, and the National Computer Center (NCC), Research Triangle
         Park (RTP), North Carolina. We interviewed Agency officials at all locations and
         contract employees at the NCC. We reviewed relevant Federal and Agency
         information security standards. We reviewed application security documentation
         to determine whether it complied with selected standards. We reviewed system
         configuration settings and conducted vulnerability testing of servers for known
         vulnerabilities. We reviewed training records for personnel with significant
         security responsibilities.

         We assessed the following security practices for ICIS:

              x	 Security Certification and Accreditation (C&A) practices -- We
                 reviewed ICIS’ C&A package to determine whether the security plan
                 was updated and re-approved at least every 3 years and the application
                 was reauthorized at least every 3 years, as required by OMB Circular
                 A-130 and EPA policy.

              x	 Application contingency plans -- We reviewed ICIS’ contingency
                 planning practices to determine whether it complied with requirements
                 outlined in EPA Directive 2195A1 (EPA Information Security Manual),
                 National Institute of Standards and Technology Special Publication
                 800-34 (Contingency Planning Guide for Information Technology
                 Systems), and EPA Procedures Document (Procedures for Implementing
                 Federal Information Technology Security Guidance and Best Practices).

              x	 Security controls -- We reviewed two areas of security controls: (1)
                 system vulnerability monitoring, which included conducting
                 vulnerability testing; and (2) physical access controls. The NCC
                 manages the servers that run ICIS and provides the primary security
                 controls for the application. Therefore, when evaluating system
                 vulnerability monitoring, we reviewed practices at the NCC. We did not
                 test physical controls at the NCC, because the NCC was undergoing an
                 audit of these controls at the time of our review and the audit found
                 instances where EPA could improve its physical controls at RTP. We
                 reported the results of this audit in Report No. 2006-P-00005, EPA
                 Could Improve Physical Access and Service Continuity/ Contingency
                 Controls for Financial and Mixed-Financial Systems Located at its
                 Research Triangle Park Campus.

                                         2

               x	 Annual Training Requirements -- We reviewed whether employees
                  with significant security responsibilities satisfied annual training
                  requirements.

          We conducted this audit in accordance with Government Auditing Standards,
          issued by the Comptroller General of the United States.

ICIS’ Compliance with Federal and Agency Security Requirements
          We noted ICIS’ production servers were being monitored for known
          vulnerabilities and personnel with significant security responsibility had
          completed the Agency’s recommended specialized security training. However,
          our audit highlighted areas where OECA should place more emphasis to comply
          with established Federal and Agency requirements. In particular, ICIS had
          weaknesses in the following areas:

               x	 The practices for maintaining the security plan could be improved. The
                  application security plan did not reflect ICIS’ current operational status
                  or document key security planning activities.

               x	 The application lacked a contingency plan or testing of contingency
                  response.

          Ensuring effective practices for updating and maintaining the application security
          plan is vital in helping management determine whether effective security controls
          are implemented and operate as intended to operate an application. Developing
          and testing the contingency plan assist management in evaluating whether the
          organization can recover from a disruption in service and determine where more
          emphasis is needed. These two important and widely recognized preventive
          controls help to protect the Agency’s network infrastructure and assist EPA
          personnel to respond effectively to security incidents. By not emphasizing these
          key security controls, OECA places the integrity, confidentiality, and availability
          of ICIS information at risk.

          Certification and Accreditation
          Although we did not find significant deficiencies with the ICIS risk assessment
          and authorization to operate, our audit revealed that OECA practices for
          maintaining the security plan could be improved to ensure key security
          information is updated and key security activities are recorded. Our review
          determined that:

               x	 The security plan OECA provided for review did not accurately reflect
                  ICIS’ current operational status. Although OECA officials indicated
                  that they updated the security plan twice since ICIS’ implementation in

                                           3

                 June 2002, the security plan OECA submitted for review indicated ICIS
                 was under development.

             x	 The security plan OECA provided for review did not reflect key security
                planning activities. OECA officials indicated that the security plan was
                updated in July 2004 and again in September 2004 because of a Risk
                Assessment and Vulnerability Assessment, respectively. However,
                these key security-planning activities were not recorded in the security
                plan OECA officials submitted for review.

        Ensuring that effective practices are in place to ensure the security plan is up-to­
        date is essential. The security plan is a key document used by senior OECA
        officials to decide whether ICIS’ current security controls are sufficient and
        whether adjustments to security controls are necessary before reaccrediting
        (reauthorizing) ICIS for continued operation.

        Contingency Planning
        OECA should improve its contingency planning for ICIS. OECA had not
        developed a plan for recovering or continuing operations of ICIS should a service
        disruption occur. Contingency plans establish the necessary procedures for
        continuing operations for critical systems and applications following disasters or
        loss of infrastructure support. Testing the plan would enable OECA to become
        familiar with the necessary recovery steps and help management identify where
        additional emphasis is needed.

        OECA officials indicated that the office had developed a contingency plan for
        ICIS. OECA officials indicated that the contingency plan would be reviewed,
        revised, and re-approved in fiscal 2006 due to the implementation of ICIS Phase
        II. OECA officials indicated that they are investigating a more robust disaster
        recovery process, scheduled to be completed by the end of fiscal 2006. In this
        regard, OECA should record these key activities and milestones in the Agency’s
        security weakness system (ASSERT database) for tracking.

Recommendations
        We recommend that the Integrated Compliance Information System (ICIS)
        System Owner:

           1.	 Conduct a review of processes used to maintain ICIS’ key information
               security documents and implement identified process improvements.

           2.	 Conduct a test of the ICIS contingency plan.

           3.	 Develop a Plan of Action and Milestones in the Agency’s security
               weakness tracking system (ASSERT database) for all noted deficiencies.

                                          4

         We recommend that the Office of Enforcement and Compliance Assurance’s
         (OECA’s) Information Security Officer:

            4.	 Conduct a review of OECA’s current information security oversight
                processes and implement identified process improvements.

Agency Comments and OIG Evaluation
         OECA agreed with our finding that ICIS lacked a contingency plan and OECA
         officials indicated that they took action to remediate the weakness. However,
         OECA should put in place a strategy for testing the new contingency plan. OECA
         did not agree that ICIS’ security plan was not up-to-date and indicated that
         subsequent to our audit field work the office updated the security plan, and we
         modified the report to remove the recommendation for OECA to update the ICIS
         security plan.

         OECA asserts that it has adequate practices in place for maintaining the security
         plan and overseeing the program office’s security program. OECA indicated that
         it reviews and recertifies all security plans for major applications every three
         years, as well as when a significant change to the application has occurred and
         annually tests and evaluates information security controls and techniques, tracks
         the remediation of information security weaknesses identified, and reports the
         status of information security. However, our audit revealed that despite these
         efforts, OECA’s oversight practices did not ensure the security plan was (1)
         updated with ICIS’ current operational status and (2) reflected the results of key
         security activities. Additionally, OECA’s practices did not ensure that ICIS, a
         major application, had an effective contingency plan or strategy, although the
         application had been in production for 3-years. Therefore, we feel OECA should
         re-evaluate its information security oversight processes to identify opportunities
         where information security could be strengthened.

         OECA indicated that no further POA&Ms are needed to address the identified
         weaknesses. OECA indicated it has plans for major contingency planning
         activities for ICIS and the office is in the process of investigating and evaluating a
         more robust disaster recovery process. OECA also has not completed a test of the
         newly developed contingency plan. In this regard, OECA should record these key
         activities and milestones in the Agency’s security weakness database (1) for
         tracking and (2) to keep the Agency’s CIO informed about the mitigation of
         security weaknesses for a key EPA major application. OECA’s complete
         response is at Appendix A.




                                           5

                                                                                   Appendix A

                    Agency Response to Draft Report 




March 9, 2006


MEMORANDUM

SUBJECT:	 Response to Draft Report “EPA Could Improve Information Security Practices for
          the Integrated Compliance Information System”

FROM:	         Granta Y. Nakayama /s/
               Assistant Administrator

TO:	           Rudolph M. Brevard, Director
               Information Technology Audits
               Office of the Inspector General

        On February 9, 2006, the Office of Enforcement and Compliance Assurance (OECA)
received the Office of Inspector General (OIG) draft report memorandum titled, “EPA Could
Improve Information Security Practices for the Integrated Compliance Information System”. In
response to your draft report, provided below is additional information that more accurately
reflects the state of our Information Security Practices as of the time of the writing of your
report. OECA appreciates the opportunity to respond to this draft report and hopes that you will
take into consideration the information provided when finalizing your report.

Response or Actions Taken to Address OIG Recommendations

1.     Update the ICIS Security Plan.

        OECA disagrees with your finding that the Integrated Compliance Information System
(ICIS) Security Plan was not up to date at the time of your audit. ICIS currently has in place an
updated Security Plan. The original ICIS Security Plan was approved in April 2002, prior to the
system going into operation. ICIS was implemented on June 22, 2002. In November 2002, a
review was conducted pursuant to the OMB A-130 requirement that security plans be reviewed
subsequent to a significant change in the application. The deployment from the development
environment to the production environment was deemed by the Office of Compliance ISO to be
such a significant change. The revised ICIS Security Plan was approved on November 27, 2002.
In December 2003, an ICIS Risk Assessment was performed to test the controls within the
Security Plan. The Security Plan was updated in July 2004 to incorporate recommendations
from the Risk Assessment. A Technical Vulnerability Assessment of ICIS was performed in

                                                 6

September 2004. The plan was then again revised in April 2005 to incorporate recommendations
from the Vulnerability Assessment. In July 2005 the plan was updated to meet new formatting
requirements from NIST 800-18. On July 28, 2005, the ICIS Security Plan was re-approved, and
the ICIS system was reauthorized to operate per requirements of OMB Circular A-130 and EPA
policy. As a result, OECA believes we have already completed work to comply with this
recommendation.

2.      Develop and implement a process to periodically review and maintain the ICIS security
plan in accordance with Federal and Agency requirements.

        OECA currently has processes in place to periodically review and maintain the ICIS
Security Plan. In accordance with OMB A-130 Appendix III, OECA reviews and recertifies all
security plans for major applications every three years, as well as when a significant change to
the application has occurred. It is for the latter reason that the security plan dated July 28, 2005,
is now being revised, following NIST 800-53 guidelines in preparation for the deployment of
ICIS Phase II. The draft revised plan is in the review and comment process and will be approved
prior to the implementation of the second phase of ICIS this fiscal year.

        In addition, as required under the Federal Information Security Management Act of 2002
(FISMA), OECA annually tests and evaluates information security controls and techniques,
tracks the remediation of information security weaknesses identified, and reports the status of
information security. The ASSERT (Automated Security Self-Evaluation & Remediation
Tracking) tool is used to automate this process. The combination of this annual process and
regular review and re-approval of the Security Plan ensures that the ICIS Security Plan and
procedures are kept up-to-date as required by Federal and Agency requirements.

3.     Develop and implement a contingency plan for ICIS.

        OECA has developed and has in place a contingency plan for ICIS. That plan was
reviewed based on Disaster Recovery Institute International (DRII) standards and was approved
as of February 6, 2006. The ICIS Contingency Plan provides the following information: a
business impact analysis, which assesses the value of the ICIS information; emergency
procedures for limited, major, and catastrophic disruptions to ICIS; and recovery plans and
testing requirements.

4.      Develop and implement a process to test and maintain the ICIS contingency plan. The
process should ensure the plan is (1) tested at least annually and (2) updated whenever
significant changes occur to the system, supported business processes, key personnel, or to the
contingency plan itself.

        The contingency plan will be reviewed, revised and re-approved in FY2006 because of
significant changes to the system resulting from the implementation of the ICIS Phase II system.
ICIS Phase II will replace the current ICIS system and will greatly expand the current data and
functionality of the system. In addition, OECA is in the process of investigating and evaluating a
more robust disaster recovery process. This investigation includes reviewing the current

                                                 7

approach and considering more efficient alternatives for disaster recovery. These activities are
scheduled to be complete by the end of FY2006. In FY2007, OECA’s plan is to review and
update the ICIS Contingency Plan to incorporate results from the disaster recovery investigation.
Now that the Contingency Plan is in place, it is a part of OECA’s annual testing and evaluation
of information security controls and techniques where we track the remediation of information
security weaknesses identified, and report the information security status. As a result of our
using processes currently in place, OECA believes we already comply with this
recommendation.

5.     Develop Plans or Action and Milestones in the Agency’s security weakness tracking
system (ASSERT database) for all noted deficiencies.

        ICIS security weaknesses identified through the annual self-assessment result in Plans of
Action and Milestones (POA&Ms) are being created and tracked through ASSERT. There are
currently no open POA&Ms in ASSERT for ICIS. In addition, because all of the findings of this
report have been addressed per OECA’s responses, no additional POA&Ms are required to be
tracked.

6.     Develop and implement a plan to re-evaluate system security oversight processes to
ensure the above recommendations are uniformly applied to all general support systems and
major applications within OECA.

         The OECA and Office of Compliance Information Security Officers (ISOs) currently
have procedures in place that ensure that they regularly review security checklists to make sure
that all government wide and Agency requirements are met in a timely manner. Given the
additional information provided in this response, we feel that current oversight processes are
adequate to ensure that OECA systems remain in compliance with security policy.

        If you need any additional information, please contact Betsy Smidinger, Deputy Director
of the Enforcement Targeting and Data Division on OECA’s Office of Compliance, at 202-564­
4017 or at email address smidinger.betsy@epa.gov.


cc: 	Catherine McCabe
     Linda Travers
     Michael Stahl
     Carolyn Sanders
     Gwendolyn Spriggs
     Kathy Dockery




                                                8

                                                                             Appendix B

                                   Distribution

Office of the Administrator
Assistant Administrator for Enforcement and Compliance Assurance
Acting Assistant Administrator for Environmental Information
Acting Director, Technology and Information Security Staff
Audit Followup Coordinator, Office of Enforcement and Compliance Assurance
Audit Followup Coordinator, Technology and Information Security Staff
Agency Followup Official (the CFO)
Agency Followup Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Acting Inspector General




                                            9

